No. 20-1775

In the Supreme Court of the United States
THE STATE OF ARIZONA, ET AL.,
PETITIONERS,

v.
CITY AND COUNTY OF SAN FRANCISCO, ET AL.,
RESPONDENTS.

THE WASHINGTON PLAINTIFFS’
BRIEF IN OPPOSITION
ROBERT W. FERGUSON
Attorney General
NOAH G. PURCELL
Solicitor General
Counsel of Record
TERA M. HEINTZ
Deputy Solicitor General
1125 Washington Street SE
Olympia, WA 98504-0100
360-753-6200
noah.purcell@atg.wa.gov

1

REASONS FOR DENYING PETITION
The Washington Plaintiffs—the States of
Washington, Colorado, Delaware, Hawaii, Illinois,
Maryland, Massachusetts, Michigan, Minnesota,
Nevada, New Jersey, New Mexico, Rhode Island, and
Virginia (the Washington Plaintiffs)—hereby join the
briefs in opposition to the petition for writ of certiorari
filed by the Federal Respondents and the State of
California. The Washington Plaintiffs agree that the
petition for writ of certiorari should be denied for all
the reasons stated therein.
RESPECTFULLY SUBMITTED.
ROBERT W. FERGUSON
Attorney General
NOAH G. PURCELL
Solicitor General
Counsel of Record
TERA M. HEINTZ
Deputy Solicitor General

September 13, 2021

1125 Washington Street SE
Olympia, WA 98504-0100
360-753-6200
noah.purcell@atg.wa.gov
Counsel for Washington Plaintiffs
(Additional Counsel listed below)

2

PHIL WEISER
Attorney General Of
Colorado

KEITH ELLISON
Attorney General Of
Minnesota

KATHLEEN JENNINGS
Attorney General Of
Delaware

AARON D. FORD
Attorney General Of
Nevada

CLARE E. CONNORS
Attorney General Of
Hawai’i

ANDREW J. BRUCK
Acting Attorney General
Of New Jersey

KWAME RAOUL
Attorney General Of
Illinois

HECTOR BALDERAS
Attorney General Of
New Mexico

BRIAN E. FROSH
Attorney General Of
Maryland

PETER F. NERONHA
Attorney General Of
Rhode Island

MAURA HEALEY
Attorney General Of
Massachusetts

MARK R. HERRING
Attorney General Of
Virginia

DANA NESSEL
Attorney General Of
Michigan

